<html>
<title> - PROJECT SAFECOM: MORE TIME, MORE MONEY, MORE COMMUNICATION? WHAT PROGRESS HAVE WE MADE IN ACHIEVING INTEROPERABLE COMMUNICATION BETWEEN LOCAL, STATE AND FEDERAL FIRST RESPONDERS?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   PROJECT SAFECOM: MORE TIME, MORE MONEY, MORE COMMUNICATION? WHAT 
PROGRESS HAVE WE MADE IN ACHIEVING INTEROPERABLE COMMUNICATION BETWEEN 
               LOCAL, STATE AND FEDERAL FIRST RESPONDERS?

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2004

                               __________

                           Serial No. 108-264

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-292                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 STEPHEN F. LYNCH, Massachusetts
TIM MURPHY, Pennsylvania             BETTY McCOLLUM, Minnesota
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
       Shannon Weinberg, Professional Staff Member/Deputy Counsel
                         Juliana French, Clerk
            Adam Bordes, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 8, 2004................................     1
Statement of:
    Beres, Timothy L., Associate Director, Office for Domestic 
      Preparedness, Department of Homeland Security..............    49
    Boyd, David G., Ph.D., Director, SAFECOM Program Office, 
      Science and Technology Directorate, Department of Homeland 
      Security...................................................    37
    Jenkins, William O., Jr., Director, Homeland Security and 
      Justice Issues, U.S. Government Accountability Office......    11
    Lischke, Maureen, Senior Executive Service, Chief Information 
      Officer, National Guard Bureau.............................   102
    Muleta, John, esq., Chief, Wireless Telecommunications 
      Bureau, Federal Communications Commission..................    71
    Neuhard, Michael P., fire chief, Fairfax County Fire and 
      Rescue Department..........................................   121
    Stile, Vincent, past president, Association of Public Safety 
      Communications Officials International, Inc................   110
    Worden, Thomas B., chief, Telecommunications Branch, State of 
      California, Governor's Office of Emergency Services........   128
Letters, statements, etc., submitted for the record by:
    Beres, Timothy L., Associate Director, Office for Domestic 
      Preparedness, Department of Homeland Security, prepared 
      statement of...............................................    51
    Boyd, David G., Ph.D., Director, SAFECOM Program Office, 
      Science and Technology Directorate, Department of Homeland 
      Security, prepared statement of............................    40
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     8
    Jenkins, William O., Jr., Director, Homeland Security and 
      Justice Issues, U.S. Government Accountability Office, 
      prepared statement of......................................    14
    Lischke, Maureen, Senior Executive Service, Chief Information 
      Officer, National Guard Bureau, prepared statement of......   104
    Muleta, John, esq., Chief, Wireless Telecommunications 
      Bureau, Federal Communications Commission, prepared 
      statement of...............................................    74
    Neuhard, Michael P., fire chief, Fairfax County Fire and 
      Rescue Department, prepared statement of...................   124
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Stile, Vincent, past president, Association of Public Safety 
      Communications Officials International, Inc., prepared 
      statement of...............................................   112
    Worden, Thomas B., chief, Telecommunications Branch, State of 
      California, Governor's Office of Emergency Services, 
      prepared statement of......................................   131

 
   PROJECT SAFECOM: MORE TIME, MORE MONEY, MORE COMMUNICATION? WHAT 
PROGRESS HAVE WE MADE IN ACHIEVING INTEROPERABLE COMMUNICATION BETWEEN 
               LOCAL, STATE AND FEDERAL FIRST RESPONDERS?

                              ----------                              


                      WEDNESDAY, SEPTEMBER 8, 2004

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m., in room 
2154, Rayburn House Office Building, Hon. Adam H. Putnam 
(chairman of the committee) presiding.
    Present: Representatives Putnam, Miller, Clay, and 
McCollum.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Shannon Weinberg, professional staff member/deputy 
counsel; Juliana French, clerk; Grace Washbourne, professional 
staff member, full committee; Adam Bordes, minority 
professional staff member; and Jean Gosa, minority assistant 
clerk.
    Mr. Putnam. Good afternoon, and welcome. This hearing of 
the Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order.
    Good afternoon and welcome to the subcommittee's hearing on 
``Project SAFECOM: More Time, More Money, More Communication? 
What Progress Have We Made in Achieving Interoperable 
Communication Between Local, State and Federal First 
Responders?''
    The purpose of this hearing is to discuss the status and 
progress of achieving communications interoperability among the 
various first responders and to continue the subcommittee's 
oversight of related Federal, State and local government 
programs. Specifically, this hearing will review the progress 
of Project SAFECOM, one of the President's 25 Quicksilver e-
Government initiatives, in developing policies that encourage 
State and local agencies to work together to promote first 
responders communications interoperability.
    In its short history, Project SAFECOM has been relocated to 
three different agencies, with four different management teams. 
Now at the Department of Homeland Security, the initiative 
appears to be progressively moving forward. In April of this 
year, Project SAFECOM adopted the statement of requirements for 
wireless public safety communications and interoperability. 
What remains unclear, however, is the status of implementation 
of these standards.
    Interoperable communications is the ability of first 
responders to share time sensitive information across 
disciplines and jurisdictions via communications systems in 
real time. On September 11, 2001, we witnessed a failure in 
communication not only among differing first responder 
agencies, but within the responding agencies themselves. The 
tragic loss of so many lives was among the most shocking events 
in our modern history. The tragedy of this event is compounded 
by the knowledge that the loss of many lives, particularly 
those of numerous first responders, could have been prevented 
had there been fully interoperable communications.
    Interoperability is not only important in managing a 
terror-related incident, but also critical in answering the 
call of other emergencies. Federal, State and local governments 
work together to answer many other types of emergencies. Here 
in our Nation's capital, we have the U.S. Park Police, the U.S. 
Capitol Police and the Metropolitan Police Department working 
together on a regular basis for crowd control at celebrations 
and demonstrations. The 2003 wildfires in San Diego, California 
drew response teams from a number of Federal, State and local 
agencies, as well as other States. And more recently, in my 
home area in Florida, twice in the last 25 days, numerous 
Federal, State and local agencies have worked together to 
evacuate 47 out of our 67 counties, nearly 3 million people in 
the State's largest ever evacuation for Hurricane Frances, only 
3 weeks after evacuating nearly 1 million people for Hurricane 
Charley.
    The vast majority of infrastructure for these interoperable 
communications resides in the management of the State and 
locals. Consequently, the Federal Government's role through 
Project SAFECOM is that of facilitating the development of the 
communication across the Nation. Frequently, we have support 
and response from other States coming in to support local 
responders in a major emergency.
    Through standards development and implementation, the goal 
of Project SAFECOM is to avoid situations in which the only way 
to communicate emergency response efforts is by switching a 
hand-held radio between responding agencies. By encouraging the 
adoption of standards, the hope is that cash-strapped local 
governments will not spend tens of millions of dollars on 
communications systems that prove to not be interoperable with 
surrounding counties.
    For instance, in the San Diego, California example, in 
October they were hit by the most devastating wildfire disaster 
in their history. Three major fires raged across the county, 
killing 16, leaving more than 390,000 acres burned and 2,700 
residential or commercial buildings destroyed. The 
comprehensive study of that firestorm declared that better 
communication was necessary. Not all firefighters had uniform 
ability to communicate, first because while county fire 
agencies used spectrum in the 800 megahertz frequency, State 
and Federal agencies use a VHF system.
    Further, some officials report that in that incident, their 
$90 million regional communication system proved to be 
ineffective, or at the least it performed sub-par in this and 
other major catastrophes. The system was first used in 1998 and 
was meant to enable 80 county, local and State government 
agencies, such as sheriffs, deputies and firefighters to 
communicate during emergencies.
    But during the firestorm of 2003, the system was plagued by 
busy signals, 38,000 in the south county and 68,000 in the east 
county. While fire administrators and many county officials say 
the system is better than what they had before, that's not good 
enough given the state of technology and the state of perpetual 
danger today. We can and must do better.
    With the interoperable communication and homeland security 
grants available to State and local governments, now 
centralized under DHS within the Office of Domestic 
Preparedness, it appears that the Department of Homeland 
Security has the carrot to persuade State and local governments 
to adopt the standards developed by Project SAFECOM. This 
appearance may be an illusion, however, because the grant money 
is awarded in the form of a block grant with few opportunities 
to follow up to ensure that the standards tied to those grants 
are actually adopted or implemented.
    Last November, this subcommittee held a joint hearing with 
the Subcommittee on National Security and Emerging Threats to 
discuss the challenges of achieving first responder 
interoperable communications. Today's hearing is an opportunity 
to examine those continued efforts to measure the progress and 
to determine the next steps in not only Project SAFECOM but 
other Federal, State and local efforts.
    As several offices still play a role in achieving 
communications interoperability, this hearing also provides an 
opportunity to examine cross-agency coordination in this 
effort. We have two very distinguished panels of witnesses 
today, the first comprised of representatives from the Federal 
offices working on communications interoperability, and I am 
eager to hear about the current state of their efforts in 
achieving an interoperable communications network of first 
responders.
    Our second panel is comprised of a number of Federal, State 
and local officials who either work on the government side of 
communications interoperability or who have first-hand disaster 
management experience, involving multiple response teams. One 
of our panelists, Larry Alexander from Polk County, FL, was 
prepared to give us first-hand disaster management expertise 
but he is still managing a disaster with multiple Federal, 
State and local agencies as we speak, as part of the recovery 
operations center in the aftermath of Hurricane Frances and in 
preparation potentially for Hurricane Ivan.
    We look forward to the expert testimony of those who are 
able to join us today. I'm pleased to be joined by our 
distinguished ranking member, the gentleman from Missouri, Mr. 
Clay and our distinguished Vice Chair from Michigan, Ms. 
Miller. At this time, I would yield to Mr. Clay for any opening 
remarks he may have. You're recognized.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.001
    
    [GRAPHIC] [TIFF OMITTED] T8292.002
    
    [GRAPHIC] [TIFF OMITTED] T8292.003
    
    Mr. Clay. Thank you, Mr. Chairman for calling this hearing 
on what is a critical issue to our national welfare. Let me 
also say that we're glad to see you back here in one piece, and 
to know that your family and constituents are safe from the two 
hurricanes that occurred in Florida and from what we hear, an 
expected third one, and let you know that we are glad you are 
here.
    This is not the first time our subcommittee has addressed 
the issues of communication and interoperability and 
substandard management within the organizations that our 
citizens depend on in times of crisis. It is my hope that our 
efforts today will aid all stakeholders in establishing long-
term policies and mechanisms for improved communications when 
we need them. To begin, I am dismayed by the recent findings of 
GAO with regard to the lack of cooperation among Federal 
agencies having responsibility for both financing and 
operations of Project SAFECOM. As a starting point for its 
troubles, the program has undergone various changes in 
management and oversight since its creation 3 years ago, having 
been assigned and reassigned among three different agencies and 
four separate management teams. Although management of the 
multi-agency project now permanently resides in the Department 
of Homeland Security, past efforts have been ineffective for 
managing a program that is designed to coordinate the efforts 
of our Nation's first responders.
    Further complicating matters is DHS' failure to secure 
operational and financial agreements among several of its 
partnering agencies on SAFECOM initiatives. While DHS has 
placed significant effort into its role as managing partner of 
SAFECOM, it cannot hold the system together without the 
cooperation and financial support of other stakeholders 
throughout the Federal, State and local bureaucracy.
    Until such financial and operational mechanisms are agreed 
to among SAFECOM stakeholders, the project will continue to be 
underfunded on an annual basis, fail in its attempt to define 
and implement national standards for wireless interoperability 
and lose the confidence of all other stakeholders in its 
mission as a central coordinator for responding to local and 
national crises.
    Again, thank you, Mr. Chairman, for calling this hearing 
and I look forward to the testimony from the witnesses.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.004
    
    [GRAPHIC] [TIFF OMITTED] T8292.005
    
    Mr. Putnam. Thank you, Mr. Clay.
    The gentlelady from Michigan, Ms. Miller.
    Ms. Miller. Thank you, Mr. Chairman. I certainly want to 
tell you how much I appreciate you holding this hearing and how 
very much we all appreciate you actually attending, considering 
what you have just been through. As Mr. Clay mentioned as well, 
I think the audience needs to recognize our chairman just 
literally got off the airplane. He's too modest to tell you 
that, but about 20 minutes ago, because that hurricane hit his 
county very, very severely, Polk County and in that immediate 
area. And I know that all the members of both chambers were 
very happy to authorize additional expenditures for the State 
of Florida. They've been so hard hit with these two last 
hurricanes and another one coming. So we appreciate your 
attendance here today and your commitment and your dedication 
to that. Certainly our thoughts and prayers are with everybody 
in Florida and hopefully Ivan doesn't get there. But in the 
interim, having this hearing today I think is very appropriate, 
very timely as we discuss this particular issue.
    Our Nation's war on terror has certainly placed our Nation 
at a pivotal moment in history, quite frankly. Brave men and 
women are fighting for our freedoms across our entire globe. 
But our enemy seeks to take the fight to our homeland as well. 
And first responders, of course, as often, and we certainly 
witnessed that on September 11, are the very first line of 
defense.
    Historically, we've considered, of course, police and 
firefighters as our Nation's first responders. But with today's 
threats, individuals such as health care officials and utility 
workers and others as well are also now going to be called 
first responders. I think they will certainly be called to duty 
in the event of an emergency. And it's vital to support these 
individuals in order to recover quickly from an urgent 
situation and to minimize its impact.
    Project SAFECOM is one aspect where the Federal Government 
can offer a considerable amount of support to State and local 
governments as they prepare their first response teams. 
Interoperable communication between Government agencies and 
organizations is vital to emergency response, it has to be done 
very quickly, especially with the availability of new 
technologies. We need to be able to utilize those technologies.
    State and local government support the necessary 
infrastructure, but the Federal Government, our role certainly 
is to offer them all guidance and set some standards. Upon 
reviewing the written testimony of today's witnesses, I am 
cautiously optimistic that Project SAFECOM is on the right 
track, and I certainly look forward to the testimony that we'll 
have from our panels today.
    Thank you, Mr. Chairman.
    Mr. Putnam. Thank you very much, Ms. Miller.
    At this time we will move directly into testimony. I would 
ask our first panel to please rise and raise your right hands, 
and anyone accompanying you who will be providing information 
for your answers to be sworn in as well. Please raise your 
right hands.
    [Witnesses sworn.]
    Mr. Putnam. I note for the record that all the witnesses 
responded in the affirmative. And we will move directly to 
testimony, beginning with Mr. William Jenkins. Mr. Jenkins 
currently serves as the Director of Homeland Security and 
Justice Issues within the U.S. Government Accountability 
Office. In this position, he is responsible for issues 
regarding emergency preparedness and response, elections, 
Federal Judiciary sentencing and corrections and bankruptcy. 
Prior to joining GAO as a faculty fellow in 1979, Mr. Jenkins 
was a professor of political science. He has also served as an 
adjunct professor to the American University. His principal 
areas of concentration include budget policy, defense, 
administration of justice and homeland security. He is a 
graduate of Rice University and received his M.A. of political 
science and Ph.D. in public law from the University of 
Wisconsin at Madison.
    We have a room issue, we will be doing everything we can to 
move the hearing along, and we would ask all of our witnesses 
to please abide by the 5-minute rule. Mr. Jenkins, you are 
recognized for 5 minutes.

   STATEMENT OF WILLIAM O. JENKINS, JR., DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Jenkins. Thank you, Mr. Chairman and members of the 
subcommittee.
    I appreciate the opportunity to be here today to discuss 
our work on wireless interoperable communications for first 
responders. First, it's important to note that interoperable 
communications is not an end in itself and is not primarily a 
technology issue. Rather, it is a necessary means of achieving 
an important goal, the ability to respond effectively to and 
mitigate the effects of incidents that require the coordinated 
actions of first responders. Interoperable communications is 
but one important component of an effective incident command 
and operation structure.
    Achieving effective interoperable communications for first 
responders requires the successful integration of people, 
processes and technology. The technology needed flows from a 
comprehensive assessment of needs and the incident management 
structure in which the technology will be used.
    In our July 2004 report and November 2003 testimony before 
this subcommittee, we outlined three challenges in achieving 
interoperable communications that remain the principal 
challenges today. They are, one, clearly defining and 
identifying the problem; two, establishing performance goals, 
requirements and standards; and three defining governmental 
roles and addressing the problem. These are primarily people 
and process issues.
    The single biggest obstacle to achieving effective 
interoperable communications has been and remains the lack of 
effective, collaborative, interdisciplinary and 
intergovernmental planning. The cultural and turf barriers for 
achieving this are deeply rooted and longstanding.
    Second, Federal, State and local governments all have 
important roles to play in developing standards that can be 
used to assess interoperability requirements, identify gaps in 
the current ability to meet those requirements and develop and 
implement comprehensive plans for closing those gaps. The 
Federal Government could provide the leadership, focus and long 
term commitment needed.
    For example, it could take leadership in developing a set 
of baseline requirements, a national data base of interoperable 
frequencies, a national standard nomenclature for those 
frequencies, and a governance and funding structure that 
supports State efforts to develop and implement statewide 
interoperable communication plans.
    Moreover, only the Federal Government can allocate public 
safety spectrum. With support from the Federal Government and 
broad participation and input from local and tribal governments 
and first responders, States can serve as the focal points for 
statewide interoperability planning and implementation. The FCC 
has recognized the States' importance by providing the States 
authority to administer the interoperability channels within 
the 700 megahertz spectrum. Some States are working to develop 
statewide plans, but there is no established structure or 
funding to support such efforts. Nor is there any guidance for 
States on what should be included in such plans. Such plans 
would need to encompass cross-State interoperability issues in 
such areas as New York, Philadelphia and Cincinnati, where 
metropolitan areas cross State boundaries.
    SAFECOM was established as the umbrella program for 
coordinating all Federal initiatives and projects on public 
safety interoperable communications. According to SAFECOM, 
there are more than 100 Federal agencies and programs involved 
in public safety issues. SAFECOM's ability to provide the 
needed Federal leadership and coordination has been hampered by 
its dependence on other Federal agencies for funding and 
cooperation. DHS has recently created the Office of 
Interoperability and Compatibility to be fully established by 
November 2004. However, that office's structure, funding and 
authority are still being developed.
    The status of current interoperable communications 
capabilities nationwide, including the scope and severity of 
any shortcomings, has not yet been determined. To assess these 
capabilities, a set of requirements is needed that can be used 
to assess what is compared to what should be. In April 2004, 
SAFECOM issued a document designed to serve as a set of 
baseline requirements, expects to complete its baseline 
assessment of current interoperable capabilities by July 2005, 
but is still refining its methodology for developing that 
baseline.
    Third and finally, the fragmented Federal branch structure 
for first responders limits the Federal Government's ability to 
provide consistent, effective guidance and support for State 
and local planning and implementation efforts. SAFECOM has 
developed recommended grant guidance for all Federal grants 
whose moneys could be used to improve interoperability But 
cannot require consistent guidance be included in all Federal 
first responder grants.
    Moreover, some grants do not support long term planning 
efforts. For example, they do not require interoperable 
communications plans prior to receiving funds or have a 1 or 2 
year performance period that may encourage a focus on equipment 
purchases rather than comprehensive planning to guide those 
purchases.
    In addition, Federal and State Governments lack a 
coordinated grant review process to ensure that funds allocated 
to local governments are used for communications projects that 
complement each other and add to overall statewide and national 
interoperable capacity. One result is that grants could be 
approved for bordering jurisdictions that propose conflicting 
interoperable solutions.
    We recognize that SAFECOM has made progress in bringing 
leadership and focus to the Federal Government's 
interoperability efforts and many State and local officials are 
working diligently to assess and improve interoperable 
communications. Our July 2004 report includes recommendations 
to the Secretary of DHS and the Director of OMB for enhancing 
Federal coordination and providing assistance and encouragement 
to States to establish statewide interoperability planning 
bodies that draw on the experience and perspectives of local 
first responders.
    That concludes my statement, Mr. Chairman, and I would be 
happy to answer any questions you or other members of the 
committee may have.
    [The prepared statement of Mr. Jenkins follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.006
    
    [GRAPHIC] [TIFF OMITTED] T8292.007
    
    [GRAPHIC] [TIFF OMITTED] T8292.008
    
    [GRAPHIC] [TIFF OMITTED] T8292.009
    
    [GRAPHIC] [TIFF OMITTED] T8292.010
    
    [GRAPHIC] [TIFF OMITTED] T8292.011
    
    [GRAPHIC] [TIFF OMITTED] T8292.012
    
    [GRAPHIC] [TIFF OMITTED] T8292.013
    
    [GRAPHIC] [TIFF OMITTED] T8292.014
    
    [GRAPHIC] [TIFF OMITTED] T8292.015
    
    [GRAPHIC] [TIFF OMITTED] T8292.016
    
    [GRAPHIC] [TIFF OMITTED] T8292.017
    
    [GRAPHIC] [TIFF OMITTED] T8292.018
    
    [GRAPHIC] [TIFF OMITTED] T8292.019
    
    [GRAPHIC] [TIFF OMITTED] T8292.020
    
    [GRAPHIC] [TIFF OMITTED] T8292.021
    
    [GRAPHIC] [TIFF OMITTED] T8292.022
    
    [GRAPHIC] [TIFF OMITTED] T8292.023
    
    [GRAPHIC] [TIFF OMITTED] T8292.024
    
    [GRAPHIC] [TIFF OMITTED] T8292.025
    
    [GRAPHIC] [TIFF OMITTED] T8292.026
    
    [GRAPHIC] [TIFF OMITTED] T8292.027
    
    [GRAPHIC] [TIFF OMITTED] T8292.028
    
    Mr. Putnam. Thank you very much, Mr. Jenkins.
    Our next witness is Dr. David Boyd. Dr. Boyd is the Deputy 
Director of System Engineering and Development under DHS' 
Science and Technology Directorate. He serves as the Director 
of the Project SAFECOM program office, and was recently placed 
in charge of creating the Department's new Office of 
Interoperability and Compatibility. He is also a member of the 
President's National Task Force on Spectrum Management.
    Prior to his work on the civilian side, Dr. Boyd served in 
the U.S. Army for more than 20 years, in which he commanded 
combat, combat support and training units in both war and 
peace, and has served on military staffs from battalion level 
to the Pentagon. He has more than three dozen military awards, 
including the Bronze Star and the Purple Heart.
    Dr. Boyd holds a career appointment in the Senior Executive 
Service, is a graduate of the University of Illinois and holds 
graduate degrees in operations research and public policy 
analysis, as well as a doctorate in decision sciences. He is 
widely published and we are delighted to have him. Dr. Boyd, 
you are recognized for 5 minutes.

 STATEMENT OF DAVID G. BOYD, PH.D., DIRECTOR, SAFECOM PROGRAM 
   OFFICE, SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Boyd. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you for the invitation to testify before 
you today.
    Mr. Chairman, as you, Chairman Davis and Chairman Shays 
observed recently in a letter to GAO, ``Effective 
communications between and among wireless communications 
systems used by Federal, State and local public safety agencies 
is generally accepted as not only desirable, but essential for 
the protection of life and property.''
    Interoperability is not a new issue for public safety. It 
was a problem in 1984 when the Air Florida flight crashed into 
the Potomac; in New York City when the Twin Towers were bombed 
in 1993; at the Murrah Building in Oklahoma City; at Columbine 
and on September 11. But September 11 put the issue in such 
stark relief that more effort has now gone into 
interoperability than at any time in history.
    Since 2001, FEMA and the COPS office have partnered with 
SAFECOM to coordinate well over $230 million in 
interoperability grants to localities. At least $1.1 billion 
more has been provided through preparedness grants to States. 
Two major interoperability initiatives have been or are being 
established at the highest levels: SAFECOM, established as a 
Presidential Management Initiative, and the DHS effort to 
establish an Office of Interoperability and Compatibility by 
the end of this year.
    When I testified before you last November, interoperability 
programs were spread across the Government. The Homeland 
Security Act had made three different agencies responsible for 
interoperability in DHS alone: the Office of Domestic 
Preparedness, the Federal Emergency Management Agency, and even 
an agency in the Department of Justice. SAFECOM was under its 
fourth program manager and the Government Accountability Office 
was finishing one study of the program and beginning another.
    I'm happy to report to you today that while much remains to 
be done, and responsibility for interoperability remains 
diffused across the Government, our efforts to bring order to 
the problem have been validated by the most recent GAO report 
and by the major State and local public safety associations, 
who declared in January that ``with the advent of the SAFECOM 
Program public safety, and State and local government finally 
have both a voice in public safety discussions at the Federal 
level and confidence that the Government is coordinating its 
resources.''
    We have created the Federal Interagency Coordinating 
Council to coordinate funding, technical assistance, standards 
development and regulations affecting communications and 
interoperability across the Federal Government. We have 
published a statement of requirements which, for the first 
time, defines what it will take to achieve full 
interoperability and provides industry requirements against 
which to map their product capabilities. We have issued a 
request for proposals for the development of a national 
interoperability baseline and will make an award in October.
    We have issued a request for information to industry to 
tell us what technologies they had or were developing to help 
with interoperability which produced more than 150 responses. 
We have accelerated the development of critical standards for 
interoperability and developed a framework for defining a 
national architecture.
    We have created coordinated grant guidance and implemented 
it in the FEMA and COPS interoperability grants last year, and 
in the COPS interoperability grants and ODP State block grants 
this year. We have established a joint task force with the 
FEDERAL Communications Commission to consider spectrum and 
regulatory issues that affect interoperability. And we've 
created a model methodology with the State of Virginia for the 
development of statewide communications plans supported at 
every level within the State.
    Since we know neither terrorists nor natural disasters will 
wait, the Secretary has directed the Science and Technology 
Directorate to provide assistance to 10 high threat urban areas 
through a program called RAPIDCom. We found that most of the 10 
urban areas have the technical capability to achieve a basic 
command level of interoperability, but lack many of the 
operational elements required to actually achieve 
interoperability, so that, in some cases, equipment provided by 
the Federal Government is still not integrated into the local 
system. We have been working for several months now to help 
fill those operational gaps, since technology, as our 
interoperability continuum displayed on the easel before you 
illustrates, is only one of the elements needed for successful 
interoperability.
    Earlier this year, the Secretary of DHS directed the 
Science and Technology Directorate to establish a new Office of 
Interoperability and Compatibility to address relevant 
equipment and training as well as communications. We have 
already identified more than 60 different programs in the 
Federal Government that deliver equipment or training to first 
responders.
    We still have much to do, but we have laid a firm 
foundation. Never before has a Presidential Management 
Initiative existed that addresses communications 
interoperability issues at all levels of Government. Never 
before has Congress made so much grant money available for 
States and localities to improve their interoperability.
    Never before has common grant guidance been applied across 
the entire Federal Government. Never before has a national 
statement of requirements for interoperability existed.
    We are confident that with your continuing support and the 
assistance of our many local, State and Federal partners, we 
can ensure that lives and property are never lost because 
public safety agencies cannot communicate. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Boyd follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.029
    
    [GRAPHIC] [TIFF OMITTED] T8292.030
    
    [GRAPHIC] [TIFF OMITTED] T8292.031
    
    [GRAPHIC] [TIFF OMITTED] T8292.032
    
    [GRAPHIC] [TIFF OMITTED] T8292.033
    
    [GRAPHIC] [TIFF OMITTED] T8292.034
    
    [GRAPHIC] [TIFF OMITTED] T8292.035
    
    [GRAPHIC] [TIFF OMITTED] T8292.036
    
    [GRAPHIC] [TIFF OMITTED] T8292.037
    
    Mr. Putnam. Thank you very much, Dr. Boyd.
    Our next witness is Timothy Beres. Welcome to the 
subcommittee, Mr. Beres. Mr. Beres is the Associate Director of 
DHS' Office of Domestic Preparedness, with responsibility for 
the State and Local Operations Division. He has been with ODP 
since its inception.
    During his tenure at the Office of Domestic Preparedness, 
Mr. Beres led the effort to establish the Center for Domestic 
Preparedness, an emergency responder training center, for the 
management and remediation of incidents of domestic terrorism 
involving chemical weapons. Additionally, he was responsible 
for developing ODP's national training program, developing 
ODP's assessment and strategy development process, and 
developing and implementing the pre-positioned equipment 
program.
    Mr. Beres received his bachelor's degree from Virginia 
PolyTech and State University in 1991. Welcome to the 
subcommittee. You're recognized for 5 minutes.

 STATEMENT OF TIMOTHY L. BERES, ASSOCIATE DIRECTOR, OFFICE FOR 
     DOMESTIC PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Beres. Thank you, Mr. Chairman, members of the 
committee. It is with great pleasure that I come and speak to 
you today. Thank you very much for having me.
    As you know, the Secretary recently established the Office 
of State and Local Government Coordination and Preparedness, of 
which ODP is now a key component. On behalf of our executive 
director, Suzanne Mencer, and Secretary Ridge, it is my 
pleasure to appear before you today to discuss briefly the 
current status of our program, specifically our work on 
interoperable communications.
    The Office of Domestic Preparedness is responsible for 
preparing our Nation against terrorism by assisting States, 
local jurisdictions, regional authorities and tribal 
governments to prevent, respond to and recover from acts of 
terrorism. Through its programs and activities, ODP equips, 
trains, exercises and supports State and local homeland 
security personnel, our Nation's first responders.
    During fiscal year 2004, ODP's record of service to the 
Nation's first responders continues. All the 56 States and 
territories have been awarded their fiscal year 2004 funds. 
These awards represent $2.2 billion in direct assistance. ODP's 
two primary sources for assistance to States and local 
communities requires them to assess their risks, capabilities 
and needs, which includes requirements relating to 
interoperable communications. Since 2002, $1.2 billion in grant 
assistance has been used by States and local jurisdictions to 
improve interoperability.
    On December 17, 2003, the President issued Homeland 
Security Presidential Directive 8, or HSPD-8. Through this 
HSPD-8, the President tasked Secretary Ridge, in coordination 
with other Federal departments as well as State and local 
jurisdictions, to develop a national preparedness goal and 
readiness matrix to improve the delivery of Federal 
preparedness assistance. ODP is leading that effort for the 
Department.
    ODP has developed and is currently implementing the 
Interoperable Communications Technical Assistance Program, or 
ICTAP. ICTAP provides onsite technical assistance and training 
at no cost to first responders in conjunction with 
communications equipment purchased with grant funding. The 
program is not limited to a set time period, but focuses on 
quickly and thoroughly meeting unique interoperability needs 
and requirements of jurisdictions across the country.
    The ICTAP technical assistance team works closely with the 
Sates and regions to provide onsite support from an initial 
assessment and inventory of what currently exists to live 
operation of the new system. This process covers four phrases: 
identifying requirements, identifying an appropriate solution, 
implementing the solution and followup and transitioning to the 
new system. ICTAP has received requests for assistance from 32 
of the 51 participating urban area security initiative 
jurisdictions as well as 8 States and 3 U.S. territories.
    With regard to some specific examples of work we're 
conducting, in South Florida significant attention is focused 
on the difficult policy issues of developing standard operating 
procedures and mutual aid agreements to address incompatible 
systems in that region's largest jurisdictions. In Central 
Florida, the immediate issue that we're working on with that 
region is to document what equipment is placed throughout the 
region. In Kansas City, Missouri, ICTAP is working with an 
organization called the Mid-American Regional Council, which 
represents city and county governments on regional issues. 
Working with the MARC representatives, ICTAP has proposed an 
interoperability solution known as the Regional Area Multi-Band 
Integrated System, which is a radio system that will provide 
interoperability between disparate radio systems.
    As we are well aware, there are a number of different 
activities both within the Department of Homeland Security as 
well as with other departments that involve interoperable 
communications issues. As you will hear about these activities 
from other witnesses, I will simply state that the role of 
ICTAP is to fill the operational communications needs of States 
and regions by responding to the requests coordinated through 
the States. ODP looks to SAFECOM to provide standards and 
conduct research that can help our jurisdictions develop a 
better interoperable communications program. As an example, 
earlier this year, we adopted the SAFECOM-developed Guidelines 
for Interoperability as recommendations for use of funds. In 
addition, ODP supports Project RAPIDCom with technical experts 
and is a member of the Federal Interagency Coordinating Council 
which seeks to avoid duplication.
    In closing, DHS' mission in the area of improved 
interoperable communications among first responders is 
critical. ODP fully recognizes the specific and vital role we 
must play. We will strive to fulfill our mission and meet our 
responsibilities in an effective and efficient manner. We will, 
to the best of our abilities, continue to identify where and 
how we can improve. This concludes my statement, and I am happy 
to respond to any questions the committee might have.
    [The prepared statement of Mr. Beres follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.038
    
    [GRAPHIC] [TIFF OMITTED] T8292.039
    
    [GRAPHIC] [TIFF OMITTED] T8292.040
    
    [GRAPHIC] [TIFF OMITTED] T8292.041
    
    [GRAPHIC] [TIFF OMITTED] T8292.042
    
    [GRAPHIC] [TIFF OMITTED] T8292.043
    
    [GRAPHIC] [TIFF OMITTED] T8292.044
    
    [GRAPHIC] [TIFF OMITTED] T8292.045
    
    [GRAPHIC] [TIFF OMITTED] T8292.046
    
    [GRAPHIC] [TIFF OMITTED] T8292.047
    
    [GRAPHIC] [TIFF OMITTED] T8292.048
    
    [GRAPHIC] [TIFF OMITTED] T8292.049
    
    [GRAPHIC] [TIFF OMITTED] T8292.050
    
    [GRAPHIC] [TIFF OMITTED] T8292.051
    
    [GRAPHIC] [TIFF OMITTED] T8292.052
    
    [GRAPHIC] [TIFF OMITTED] T8292.053
    
    [GRAPHIC] [TIFF OMITTED] T8292.054
    
    [GRAPHIC] [TIFF OMITTED] T8292.055
    
    [GRAPHIC] [TIFF OMITTED] T8292.056
    
    [GRAPHIC] [TIFF OMITTED] T8292.057
    
    Mr. Putnam. Thank you very much, and before we take our 
final testimony, I would like to welcome to the subcommittee 
our newest member, Ms. McCollum, the gentlelady from Minnesota. 
We will move forward with our testimony.
    Our final witness on panel one is John Muleta. Mr. Muleta 
serves as Chief of the Wireless Telecommunications Bureau 
within the Federal Communications Commission. Prior to his 
appointment as Chief, Mr. Muleta served the FCC in various 
positions, including Deputy Bureau Chief in the Common Carrier 
Bureau and Chief of the Enforcement Division of that same 
bureau. In the private sector, he began his career at GTE Corp. 
and later worked at Coopers and Lybrand Consulting. He received 
a B.S. degree in systems engineering at the University of 
Virginia School of Engineering and Applied Sciences, and his 
J.D. MBA also from the University of Virginia. Welcome to the 
subcommittee, sir. You are recognized for 5 minutes.

        STATEMENT OF JOHN MULETA, ESQ., CHIEF, WIRELESS 
  TELECOMMUNICATIONS BUREAU, FEDERAL COMMUNICATIONS COMMISSION

    Mr. Muleta. Good afternoon, Chairman Putnam and other 
members of the subcommittee.
    I'd like to note that I'm sitting beside my colleague from 
the Department of Homeland Security, one of the few times 
University of Virginia has been behind Virginia Tech. That's a 
little aside there. [Laughter.]
    I want to thank you for this opportunity to appear before 
you on behalf of FCC to discuss our work on facilitating 
interoperability between the Nation's public safety 
communications systems. On July 20th of this year, I appeared 
before the committee to discuss our work on facilitating 
interoperability. On that date, GAO had released its 
comprehensive analysis on Project SAFECOM and testified as to 
the challenges that are inherent in fostering interoperability 
on a nationwide scale. During the past month, the Commission 
has taken several steps to further its efforts in this area. 
First, the Commission released its decision regarding public 
safety interference on the 800 megahertz band, which will go t 
a significant way toward alleviating and ultimately eliminating 
instances of interference to public safety in that band, while 
simultaneously freeing up additional spectrum for public safety 
use, including for interoperability purposes.
    Second, the FCC's Homeland Security Policy Council report 
to the Commission on the FCC's overall efforts to ensure that 
our regulations and policies promote public safety 
interoperability, enhance 911 implementation, network security 
and reliability and other vital homeland security goals. In 
addition to our initiative, the 9/11 Commission released its 
report with its recommendations that may impact 
telecommunications policies.
    Before discussing these important matters, however, I'd 
like to review the FCC's background and history in dealing with 
interoperability and public safety spectrum issues. The 
Commission's experience working with public safety entities and 
stakeholders is expansive and far-reaching. Today there are 
more than 40,000 spectrum licenses designated for public safety 
systems under the Communications Act. The FCC has the unique 
role of providing the spectrum that States and local 
governments use as an integral part of these systems.
    Under the leadership of Chairman Powell, the Commission has 
intensified its effort in this area and designated homeland 
security and public safety issues as one of the Commission's 
six core strategic objectives. As September 11th vividly 
demonstrated, the ability of public safety systems to 
communicate seamlessly at incident sites with minimal onsite 
coordination is critical to saving lives and property. The FCC 
is therefore committed to using all of its resources to promote 
and enhance interoperability of the thousands of other safety 
systems that make up a critical part of our homeland security 
network.
    Our experience indicates that a holistic approach is the 
best method for fostering interoperability. Achieving 
interoperability requires a focus on more than spectrum, 
technology and equipment issues. It also requires a focus on 
the organizational and the personal coordination communications 
that are necessary to make it available at the times of our 
greatest needs. For its part, the Commission directed its 
efforts toward providing additional spectrum for public safety 
systems, to also nurture technological developments that 
enhance interoperability and also providing its expertise and 
input within the limits of the statute to interagency effort 
such as SAFECOM to improve our homeland security.
    With that said, it's important to understand that despite 
all its efforts, there are limits to what the FCC can do. The 
FCC is only one stakeholder in the process, and many of the 
challenges facing interoperability are a result of the 
disparate governmental interests, local, State and Federal, 
that individually operate portions of our national public 
safety systems. Each of these interests has different 
capabilities in terms of funding and technological 
sophistication, making it difficult to develop and deploy 
interoperability strategies uniformly throughout the country 
without initiatives such as the ones that SAFECOM and DHS are 
now implementing.
    Regardless of these problems, we at the FCC continue to 
advance policies that enable all of the stakeholders to do 
their best in maintaining a strong and viable national public 
safety system.
    Moving on to the actual spectrum that's available for 
public safety, the Commission currently has designated 
throughout the country approximately 97 megahertz of spectrum 
from 10 different bands for public safety use. The Commission 
has also designated channels of these public safety bands 
specifically for interoperability, including 2.6 megahertz in 
the 700 megahertz band, five channels in the 800 megahertz 
band, five channels in the 150 megahertz band which is commonly 
known as the VHF band, and four channels in the 450 megahertz 
band, known as the UHF band.
    In addition, starting next January, the Commission will 
require newly certified public safety mobile radio units to 
have the capacity to transmit and receive on a nationwide 
public safety interoperability calling channel in the UHF and 
VHF bands in which they operate.
    In recent years, the Commission has also made additional 
spectrum available for public safety use. First, consistent 
with the Balanced Budget Act of 1997, the FCC identified and 
allocated 24 additional megahertz of spectrum in the 700 
megahertz band for public safety use. In particular, it's 
important to note that the FCC designated 2.6 megahertz of the 
spectrum for interoperability purposes. Given the central role 
the States provide in managing emergency communications and in 
concert with what my colleague from GAO has reported on, the 
FCC also concluded that States are well suited for 
administering the interoperability spectrum and that State 
level administration would promote the safety of life and 
property through seamless coordinated communications on 
interoperable spectrum.
    Second, the FCC designated 50 megahertz of spectrum at 4.9 
gigahertz for public safety users in response to requests from 
the public safety community for additional spectrum for 
broadband data communications. The 4.9 gigahertz band rules 
also foster interoperability by providing a new and innovative 
regulatory framework where traditional public safety entities 
can pursue strategic partnerships with others, such as a 
critical infrastructure industry, that are necessary for the 
completion of their mission.
    Most recently, in our July agenda meeting, the Commission 
adopted by unanimous and bipartisan vote a solution to the 
ongoing and growing problem of interference based in the 800 
megahertz public safety radio system. In addition to providing 
a means to abate such interference, the Commission's decision 
will ultimately result in the availability of additional 4.5 
megahertz of the 800 megahertz band, which is the most heavily 
used band for public safety and critical infrastructure 
licenses. We are hopeful that public safety organizations will 
take full advantage of this additional spectrum to advance 
interoperable communications goals.
    Moving on to the coordination efforts that we carry on, the 
Commission staff also routinely confers and does outreach with 
critical organizations, including the Association of Public 
Safety Communications Officials, the National Public Safety 
Telecommunications Council, the International Association of 
Fire Chiefs, International Association of Chiefs of Police. 
Moreover, the staff is working closely with the Department of 
Homeland Security SAFECOM as we both share the common goal of 
improving public safety communications and interoperability. We 
are continuing our collaborative efforts to develop a strong 
working relationship, both formally and informally.
    Dr. Boyd and I also continue to work together at a personal 
level to promote and ensure effective coordination regarding 
homeland security issues. As I mentioned in July, Dr. Boyd and 
I are committed to establishing an informal working group 
comprised of representatives of our respective staffs to meet 
on a regular basis to focus on interoperability issues of 
mutual interests. I am pleased to announce that we have taken 
steps to this end, and just recently, representatives of our 
staff have initiated this effort. I am encouraged by this 
action and confident that this interagency cooperation will 
prove beneficial to all the groups involved.
    Thank you for the opportunity to testify in front of you on 
this important issue, and I will be glad to answer any 
questions you might have. Thank you, sir.
    [The prepared statement of Mr. Muleta follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.058
    
    [GRAPHIC] [TIFF OMITTED] T8292.059
    
    [GRAPHIC] [TIFF OMITTED] T8292.060
    
    [GRAPHIC] [TIFF OMITTED] T8292.061
    
    [GRAPHIC] [TIFF OMITTED] T8292.062
    
    [GRAPHIC] [TIFF OMITTED] T8292.063
    
    [GRAPHIC] [TIFF OMITTED] T8292.064
    
    [GRAPHIC] [TIFF OMITTED] T8292.065
    
    [GRAPHIC] [TIFF OMITTED] T8292.066
    
    [GRAPHIC] [TIFF OMITTED] T8292.067
    
    [GRAPHIC] [TIFF OMITTED] T8292.068
    
    [GRAPHIC] [TIFF OMITTED] T8292.069
    
    [GRAPHIC] [TIFF OMITTED] T8292.070
    
    [GRAPHIC] [TIFF OMITTED] T8292.071
    
    [GRAPHIC] [TIFF OMITTED] T8292.072
    
    [GRAPHIC] [TIFF OMITTED] T8292.073
    
    [GRAPHIC] [TIFF OMITTED] T8292.074
    
    Mr. Putnam. Thank you very much. I know that there will be 
a number of questions. We will begin with 5 minute rounds. The 
Vice Chair of the subcommittee will begin, the gentlelady from 
Michigan, Ms. Miller.
    Ms. Miller. Thank you, Mr. Chairman.
    I appreciated all of you coming today and your testimony is 
very interesting. One of the more emotional debates I think 
that we had this year on the floor of the House was when we 
were debating the Department of Homeland Security budget. There 
was an amendment that just about everybody had something to say 
about, where they were talking about whether or not we should 
be expending more funds in the State of New York, in the city 
of New York rather than spending funds in Montana or Wyoming. 
This is not a new debate. I think the entire Nation has engaged 
in it. In fact, I noticed recently one of the networks had a 
story about this. I forget the numbers numerically, but I think 
they were saying that some of the less populated States were 
getting almost $50 per capita, States like New York, etc., were 
in the $20 range or something. Again, I've forgotten the 
numbers, but quite a discrepancy there.
    So I have a question about the dollars as well, and how we 
actually are expending the dollars. I think Dr. Boyd and Mr. 
Beres both mentioned a little bit about the dollars. Whether or 
not, I think Mr. Boyd said there was quite a bit of money that 
we had never before authorized so much money for the DHS and 
for the various programs. I think Mr. Beres mentioned the $2 
billion amount.
    But I'm just wondering, first of all, how much actually has 
been authorized by Congress in regards to SAFECOM and how are 
you actually granting the dollars? Especially I guess my 
question goes to, how are you actually working with the States 
or localities? It's been my experience in Michigan that it's 
almost exclusively with the State of Michigan rather than the 
individual counties. I'm just wondering if that is true or my 
observation is correct, and are you then working with the 
States, each one of the States of course is responsible to have 
their respective department of homeland security assessment, 
their State assessment? How is all this working?
    Mr. Boyd. I think we probably ought to answer that in two 
parts. Tim Beres manages the actual grant funding. Let me talk 
a bit about how we're approaching the States and what we think 
it requires to make things work in the States.
    We're convinced that for any statewide plan to work, and we 
think you need a statewide plan, it has to be one that's built 
from the bottom up, that includes the small counties and the 
small towns. When we worked with the State of Virginia to help 
them develop a statewide plan, we intentionally started the 
effort in Wytheville, VA, a very small place, and then worked 
our way around the State. In fact, that statewide plan is 
attached to testimony that you will be hearing in the next 
panel.
    We believe you can't make interoperability work unless you 
start at the local level and work your way up. Because 
interoperability isn't something that's isolated to a single 
city or a single place, if we're going to have real 
interoperability you have to be able to take it to all levels. 
For example, when urban search and rescue teams deploy, no 
matter where it is they go they come from a variety of 
jurisdictions. They don't just come from big cities; they often 
come from volunteers in smaller counties, from a combination of 
groups from around the United States.
    It's important when they arrive that their communications 
equipment be fully interoperable. The way it's handled now in 
many cases is exactly as the chairman has pointed out, by 
exchanging radios. They either bring extra radios with them, or 
the agency that they're coming to support has to provide them 
radios. We need to be able to do a much better job than that, 
and we think that means you have to start with a collaborative 
effort that includes all of the players at the very lowest 
level of government all the way up to the very highest level. 
It's our experience that no statewide plan will work unless 
it's built this way.
    Ms. Miller. Tim.
    Mr. Beres. Thanks. The majority of our funding goes through 
the States, as you mentioned before, both the urban Area 
Security Initiative funding and the State Homeland Security 
grant program does go through the States. Then it has to be, 80 
percent of those funds have to be sub-granted out to local 
units of government.
    The reason for this is to allow the State, a central 
player, to have an overall look, strategic look, strategic 
planning outlook, as to how to allocate the funds. This is 
especially important when we're talking about interoperability, 
so that we aren't making individual grants to smaller 
communities that aren't necessarily incorporated into an 
overall broader plan or broader strategy for interoperability. 
We want to make sure that coordination is done at a central 
level in the State, along with all the communities that would 
be receiving funding for interoperability.
    Ms. Miller. You know, if I could followup on that, a big 
purposes of this hearing today is so that we can continue to 
fine tune and do a better job and make sure the dollars are 
getting where they need to get. It's not as though we all just 
fell off the truck and now find out that the ability to 
communicate is a problem. It's not as thought it's inherent to 
one particular area. It seems to be very widespread.
    In fact, I'll give you a personal experience, Secretary 
Ridge came into one of my counties, and that's what he said, 
almost everywhere he went in the Nation, that's what he was 
finding, is the ability to communicate amongst the various 
first responders and public agencies, etc., was a big problem 
that we were having. I'm wondering whether or not Congress, for 
instance, maybe we have made the criteria for the granting too 
restrictive for you. I have a county in my area, all politics 
being local, this is the county that has the Bluewater Bridge, 
which is the third busiest commercial artery on the northern 
tier, it is the only bridge that is authorized to transport 
hazardous material. We have a CN Rail tunnel that's immediately 
under there. We have something called Chemical Valley that runs 
along, we have a liquid border that we share with Canada for 
miles and miles with all these chemical plants, etc.
    And yet almost all the money that comes into our State 
seems to go into a county that is host to the city of Detroit, 
because of these population criteria that we have foisted on 
all of you. Is there a way that Congress can make you better 
able to accomplish your mission, give you more flexibility? Do 
you have any comments on how restrictive we've made it in 
handicapping your ability to get the dollars?
    Mr. Beres. There's two different programs that we have, one 
of which is the Urban Area Security Initiative program, which 
is based on risk primarily, a risk-based formula that really 
hits to the highest threat urban areas in the country, one of 
which is Detroit and its core county that is around it. Then 
the other program is a little bit larger than the Urban Area 
Security Initiative Program, which is a statewide program, 
which is, the purpose of that is to meet those other areas that 
are not covered under those high risk programs.
    So we do focus a great deal of our dollars on high risk 
areas that have been identified, but then a whole other pot is 
focused on high risk areas that the State has identified that 
aren't in our original pot. Some of those can be pushed to 
those other areas through the State itself.
    Mr. Boyd. We also had some other difficulties as we applied 
the common grant guidance. Depending on who it was they were 
applying to for the grant, and what legislation governed the 
agency, the rules for the grants were different. So with 
SAFECOM grant guidance we tried to create a common set of 
requirements, but then we had to tailor them based on what the 
law actually said, for whether it was a grant that was coming 
through FEMA or it was a grant coming through the COPS office 
or it was part of a State block grant coming through the State.
    In some cases the grants would permit funding only for 
equipment. One of the great difficulties with this is that many 
of these localities lack the technical expertise, the 
engineering help, and the consulting help they needed. But in 
the case of the COPS grants, they could spend the money only on 
equipment. In the FEMA grants, they had a bit more flexibility 
and they were actually able to use these to pay for all the 
elements of interoperability.
    One of the points we make, and one of the reasons we 
developed the continuum is that technology is only one 
component of interoperability. You also have to help the 
jurisdictions develop solid governance structures, you have to 
work with them through exercises and training, you have to help 
them develop standard operating procedures, and you have to be 
able to provide the technical assistance they need. So it would 
be useful if mechanisms were made available, if the legislation 
didn't have different requirements to address the same problem, 
and if they weren't so restrictive that communities couldn't 
seek the kind of help they needed in order to support 
interoperability.
    Ms. Miller. Thank you.
    Mr. Putnam. Thank you, Ms. Miller.
    I'd be happy to recognize the gentlelady from Minnesota for 
your first wave of questioning.
    Ms. McCollum. Thank you, Mr. Chair.
    I just had a meeting with the first responders' 
representatives in Minnesota with Congressman Szabo this past 
month in August. And there were a couple of themes that came 
up, and of course they all had to do with dollars. One of them 
was just in applying for the grants, and I noticed in the GAO 
study it talks about Federal grant structure does not support 
statewide planning. And another section of it deals with grant 
submission, performance period, time, also presents challenges 
to short term and long term funding.
    One of the issues, and everybody around the table shook 
their head, is the supplying online that they're doing. The 
system is down for maintenance quite often on the weekends. 
These are people who are putting this on top of already a 40 
hour work week that they're doing, quite often coming in to do 
this on evenings and weekends. And the system is down for 
maintenance, they can't, I'll get you their comments. But they 
were really looking to having a system that was user friendly 
and easy to use. There is room for needs improvement in this 
category for our local elected officials.
    The other issue was the way that reimbursements were being 
held. They have budgets and budget frames in which they work 
under for county and local units of government. The Federal 
budget frame doesn't work the same way. And they are not 
allowed to run deficits, they have to balance their budget. So 
they either have to make decisions that the grant is going to 
forward and the funding will come when they submit their 
budgets to, whether it's a city council or the county or the 
State. Then if it doesn't come, they've created a deficit, a 
hole in their budget.
    So I hope as we move forward and along with this, we take 
into account not only do we need to get our work done for our 
budgeting in a timely fashion, that is stay here and do the 
work, but we also have to be cognizant of what their budgets 
are like. And also the joint powers agreement that many 
municipalities have to enter into in order to make their 
projects cost effective also is causing problems in applying 
for grants.
    So having said that, I'll move to the two questions that I 
have. One is in a document that was prepared for us and it's on 
page three. It talks about the GAO, however, according to the 
Department of Homeland Security, failed to secure agreements 
with two of the key stakeholder agencies in 2003, the 
Departments of Interior and Justice. Thus, only $17 million of 
the $30.9 million OMB allocated through participating agencies 
was received by SAFECOM. So my question is, what happened to 
the other $18 million?
    And I also have heard very clearly from my first 
responders, both private sector and public sector, that they 
are very concerned about interoperability continuing on in the 
future as technology upgrades will be happening. First they are 
trying to get the money to convert everybody to 800, then they 
have the challenge of how do we keep everybody from the 
National Guard to the smallest township in Ramsey County 
current with upgrades? Has there been any talk about how we're 
going to play for the money for that?
    Mr. Boyd. Well, let me answer the first question about the 
partner funding. So far we have agreements in place and have 
received the funding this year from all of the partners except 
the Department of Interior. We continue to talk with the 
Department of Interior. But all the rest this year has been 
provided.
    Part of the SAFECOM planning makes the assumption that 
we're going to have a variety of different technologies over 
time. That's because technology doesn't advance in an orderly 
way and localities can't simply upgrade every time something 
new arrives on the horizon.
    So for that reason, we believe the development of our 
standard strategy and the kinds of help we provide to 
localities needs to provide what we call a migration path; that 
is, a rational way to migrate forward to full interoperability 
while maintaining backward interoperability with legacy 
systems. We know, for example, that software defined radio is 
on the horizon. We know that increasingly we're going to be 
moving from analog to digital systems. And so all of those are 
going to continue to create some of the technology disconnects 
that contribute to a lack of interoperability.
    There are near term ways to get around this, and part of 
what RAPIDCom is focused on doing and what we're trying to help 
localities with is to put into place near term interoperability 
solutions, things like patch devices. We, for example, issued a 
set of specifications to govern the purchase of patch devices 
that localities could use when they issued their requests for 
proposals from manufacturers.
    We think all of those things, together with a standards 
process that allows that migration, is going to be essential in 
order to permit the upgrades to happen in a way that doesn't 
lose contact with the technologies they're leaving. We're well 
aware that a typical jurisdiction that made an investment 8 
years ago in an analog system is not likely to be able to 
afford to spend $11 million or $20 million or $100 million to 
go to a digital system in the next year or 2 or 3 years. The 
technologies we deal with here, and the way public safety 
agencies put them into place, means that some of the systems 
will last 30 years, even though the technology life cycle is 18 
to 24 months.
    So all of our planning and all of our standards are 
designed to take this into account so we don't leave behind 
legacy systems. There will always be legacy systems with us.
    Ms. Miller. Mr. Chair, I don't think that answered my 
question on how the Federal Government is going to provide 
funding. Have we provided long term funding for these legacy 
systems to continue the upgrades?
    Mr. Beres. The Department continues to request the 
approximately $4 billion in homeland security grant funds, of 
which upgrades for interoperability communications planning, 
the exercises that Dr. Boyd talked about, all of which are 
allowable costs. As we progress down this road of upgrading 
technologies and looking back and hanging on to legacy systems, 
the funding that is currently in the President's budget that's 
before Congress now provides for us to look forward to new 
technologies and increase better interoperable communications 
at that State and local level.
    Mr. Boyd. It's also important to remember that more than 97 
percent of the funding that goes out to the field, even for 
emergency communications, is provided by States and localities. 
Federal money represents only a relatively small part of that.
    So one of the things first responders asked us to help them 
with was to provide them tools to build a business case that 
they could use to take to their county commissions, to their 
city councils and their State legislatures to explain why 
interoperability was important and why interoperability had to 
be built into new funding plans, and why you had to think about 
a life cycle system instead of buying a system now and then 
hoping that it will last 30 years and then funding a whole new 
system in 30 years.
    One of the things that we believe that a rationally 
developed set of standards will help us do is to allow 
incremental upgrades of technologies. Right now, one of the 
unfortunate problems we have, because of the lack of standards, 
is proprietary features and proprietary standards that make it 
very, very difficult for a community to upgrade pieces of a 
system in 2 or 3 years that are a little more advanced.
    For example even though you may go buy a device for your 
computer that's designed to operate on a version 1.1 bus, it 
will work in your new computer with a version 2 bus. That's not 
the case with most of the communications systems now, because 
of proprietary elements. Typically, manufacturers will design a 
system and sell it for about 5 to 7 years, then manufacture 
parts for it for a few years and finally stop supporting it. 
Unfortunately, because we don't have the universal standards 
yet, that we're trying to put in place, when it comes time to 
modernize a system, agencies only have two choices: either 
continue to buy equipment with the current technology, which 
means going to the used market and hoping there somebody has 
recently retired a system that they can use for parts to 
maintain it; or it means buying an entirely new system, which 
usually means a bond issue.
    Ms. McCollum. Well, thank you, Mr. Chair. As you can see, 
if we don't have a universal system out there, we are going to 
have many municipalities making a choice as to what to do, 
similar to just throwing a dart at a dart board and hoping it 
lands in the right space. So this really needs to be addressed.
    Mr. Putnam. Thank you very much.
    Mr. Muleta, you've heard your fellow panelists field these 
questions about the issues that are out there. Could you give 
us some sense of what concrete success we have had in improving 
interoperability since September 11, 2001?
    Mr. Muleta. Given that there are 40,000 public safety 
licensees, it's difficult to find one concrete example. I think 
there are many. The bigger success has been all of the things 
that we are talking about today, which is the focus on long 
term planning, the focus on the need for interoperability 
outside of the sort of narrow context of urban areas, but to 
look at threat areas and sort of understand that it's all part 
of the matrix. I think there has just been an incredible amount 
of focus on those issues.
    Other areas where I have seen success has been the way that 
the public safety community has come together in terms of 
representing their interests in front of FCC and making sure 
that we are focused on addressing interoperability issues. They 
are not sort of like small pockets of divided forces, so that 
the Commission can act in concert in dealing with these issues.
    So for me, it's very difficult to say here are communities 
where it's very successful.
    Mr. Putnam. Let me try to narrow it down a little bit, 
then.
    Mr. Muleta. Let me address one community. Alexandria, the 
community of interest that follows along the Department of 
Defense Pentagon building, in Arlington, Alexandria, Fairfax 
County and the District have a workable system that actually 
worked on September 11th by statements made by other folks. But 
they had a coordinated plan, they could react accordingly. They 
had the processes in place. That's a community that was already 
there. I think that reflects the sort of threat level that the 
Pentagon has as opposed to other communities out there.
    Mr. Putnam. Thank you. We have a panelist from the area, 
too, in our second panel, so we'll be able to hear from them.
    40,000 licensees, how many options are there? If you have 
municipality, local fire department puts out an RFP to upgrade 
their system, how many choices are there?
    Mr. Muleta. By choices, in terms of systems?
    Mr. Putnam. Yes.
    Mr. Muleta. I think there are 10 different bands that can 
be used for public safety. So that at least gives you an idea 
of the size of the matrix, because the first thing that you do 
with a public safety system, you say, what channels are 
available for use. And depending on the sophistication of the 
licensee, what goes into it is, am I part of a statewide 
system, am I part of that plan, am I part of a regional plan, 
are there channels available and then what can I afford. Am I 
having to buy a used system, am I having to buy a new one, 
because the price difference is significant.
    So I think in terms of technology, one of the issues has 
been to, and this is a broader statement than a spectrum issue, 
that there needs to be more variation, more ability, more 
technology available that's similar to the computer technology 
where you sort of have open standards and you can plug and 
play, and have different manufacturers playing in the field.
    So there are lots of choices on how you design your 
systems, but probably not enough open systems to allow for the 
sort of mix and match, plug and play type of environment that 
we have in the computing world. I think we are in essence in 
the worst of best worlds, there are too many choices and not 
enough choices in other areas.
    Mr. Putnam. So how many manufacturers are there that are in 
this field?
    Mr. Muleta. I think it's sort of a handful of significant 
players in the field. A couple of companies have significant 
market share in the public safety community.
    As Dr. Boyd explained, these systems are being purchased 
for sort of 10, 15 year life cycles. And the ability of 
companies to support that on a proprietary basis limits the 
universal appeal of this business. So it's limited. But we are 
trying to get into the world where you have plug and play.
    Mr. Putnam. Dr. Boyd, let's pursue that a little bit. 
Coming out of the State legislature, we want a 6-year plan or 
something to get the highway patrol 800 megahertz trunk systems 
and undoubtedly by the time the last batch is purchased in year 
6 the folks who got theirs in year 1 are already up onto 
something else.
    Where does this really end? Is this just a cat chasing its 
tail? What is the end mission? The GAO is quoted as saying that 
you will never be fully interoperable, so what is, how do we 
define success and what is the best way to approach this? What 
is the ordinary emergency mission that we are using as sort of 
our model? And undoubtedly September 11th, I would hope is a 
bit on the outlier side of the spectrum, and tornadoes in the 
Midwest and floods or hurricanes on the Gulf Coast or things 
like that would probably be the more normal type of multi-
jurisdictional emergency.
    How will we ever get our arms around this and how do we 
approach it? Do we approach it for what's best for a county, 
what's best for a State, what's best for a region? Help me 
understand that a little bit better, please.
    Mr. Boyd. Let me do it in two parts. Our philosophy argues 
first that localities are not going to be able to use 
communications equipment effectively that they don't use in 
normal day to day emergencies. Our perspective is that 
emergencies are the business of public safety, that it's not 
just the major terrorist event or the hurricane. It is, in 
fact, what they do 24 hours a day, 7 days a week, year round.
    So the issue then is scale. Can you handle the incident all 
the way from a massive terrorist attack in communications terms 
all the way down to something as small as a traffic stop? We 
maintain first that this needs to be communications equipment 
they're going to use all the time.
    The second part is that we believe the development of a 
robust standards process, and trying Federal grants to 
implementation of guidance built around those standards is one 
of the ways to begin to move in the right direction and to 
encourage industry to move that way. In fact, if you had asked 
me that question in, let's say, 1980, about whether we're going 
to have that kind of issue with computers, I would have had to 
say that as things stood then, you had a choice of CPM, you had 
DOS, and a long list of other different kinds of operating 
systems, different networks and even different versions of 
ASCII, whether it was a proprietary IBM called EBCDIC or other 
kinds of digital exchange or digital storage mechanisms. It 
made it extraordinarily difficult to exchange information.
    I think that as the standards came along, they were driven 
in large measure by the market, and large buyers like the 
Federal Government which said, well, gee, if we're going to buy 
these things they really need to come down to kind of common 
sorts of exchange protocols and operating systems and so on. I 
think the same thing is going to have to happen in 
communications. That's the way we're trying to approach things, 
to try to develop guidance first, because standards take a 
little while to produce to get everybody on board, because the 
law governs how standards are developed.
    So we first want to go to guidance that says, look, as you 
build your statewide plans, you have to involve everybody in 
the statewide plan, beginning at the lowest level and bringing 
all levels in, or you will encounter, as Ms. Miller has pointed 
out, the kind of situation you have in some States where you 
have a statewide system that only the State police are on and 
nobody else is, because they didn't bring the localities in 
first.
    We think that is the first step, that you have to get 
everybody working together along a common set of protocols and 
develop a common appreciation of why interoperability needs to 
be a part of common planning. Then you can begin to demand 
compliance as you develop your RFPs for new systems. You can 
demand a way to ensure interoperability, even if in the early 
days it relies on a patch system, something like the kinds of 
patches that are used in the national capital region. This way 
you begin to force an increasing degree of interoperability so 
that you eventually arrive at what you're after.
    You asked a minute ago whether there were certain 
communities that had already developed some reasonably 
successful interoperability solutions, and there are. They're 
not generally statewide, although South Dakota comes close to 
qualifying as a statewide solution. It may be a bit easier with 
a population of 650,000, but they actually have a statewide 
system where they helped to buy and put the systems in place 
for everybody.
    There is a system in the State of Indiana which does not 
encompass the whole State, but nevertheless began by working 
with localities to help bring them in. San Diego County was 
probably the first real success for an area in the United 
States when they developed a fairly primitive, but effective 
solution by developing the first multi-jurisdictional set of 
governance agreements, protocols, standard operating procedures 
and exercises to allow interoperability in the county. They did 
this almost 10 years ago under a project that I was fortunate 
enough to be involved in while I was still in Justice.
    You have a number of such exempts. The State of Virginia 
now has a statewide plan that actually starts at the lowest 
levels, and works its way all the way up to the Richmonds and 
the Northern Virginias in order to bring them all together in a 
statewide plan. So there is movement, but this is a big 
challenge. This is a large activity. There are, depending on 
how you count them, somewhere between 40,000 and 60,000 
independent jurisdictions who have to be a part of bringing all 
this together.
    Making that kind of change is going to take a while. But I 
think we've really laid a foundation and really attracted 
attention, in large measure, because Congress has applied so 
much attention and so much emphasis to interoperability over 
the past few years.
    Mr. Putnam. Thank you.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Muleta, do I understand correctly that the FCC relies 
mostly on volunteers from input and operations of public safety 
spectrums? And is the operation of public safety spectrum well 
funded, or is the use of volunteers due to a lack of resources?
    Mr. Muleta. To be honest with you, I don't understand the 
context of the question. The FCC manages the spectrum for 
public safety in the sense that we make the allocation and then 
the assignment of that to public safety licensees, we award the 
licenses. There is no use of volunteers in that context.
    There are State interoperability committees, regional 
planning committees that are composed of public safety 
officials who get together, based on requests from, as sort of 
representative licensees that develop plans, regional plans, 
statewide plans. I think the question might be referring to the 
fact that some of these, there's not a specific mandate from 
the FCC to require State interoperability committees. That's a 
recommendation that has been made by the National Coordination 
Committee that we established to plan for the 700 megahertz, 
the use of the public safety band in 700 megahertz.
    We are considering that option. I think one of the issues 
that we have to be careful about is when you mandate a specific 
requirement on States, on how they can deploy their resources, 
we want to make sure that we get all the input and sort of 
carefully deliberate that issue.
    There's nothing to prevent States from actually putting 
together their own interoperability groups. So we believe there 
is enough grant resources and things like that to make this a 
viable approach.
    Mr. Clay. OK, so specifically you rejected, rather the 
FCC's rejection of the council's recommendation for a national 
planning committee's utilization of a data base for frequency 
coordination, that was rejected by FCC, correct?
    Mr. Muleta. I think a recommendation was made to us. We 
have not acted on it. We're seeking comment and are thinking 
through the process of what the requirements would be on 
establishing a mandate on this States to do things in a 
particular way. So we're seeking comment on those and waiting 
to see if we can make a decision. I think we hope to have 
something on the various recommendations made by the National 
Coordination Committee, which was a Federal advisory committee 
that we established to plan for the 700 megahertz. They made a 
set of requirements. And I think we'll act upon them 
accordingly.
    Mr. Clay. And the FCC didn't necessarily care for the 
recommendations, so you rejected them and then you FE
    Mr. Muleta. Again, I FE
    Mr. Clay. So then you will come out with a response to them 
at what date?
    Mr. Muleta. I think the advisory board gave us a set of 
recommendations and we will review them as part of the normal 
FCC process. The commissioners will make choices on which 
issues can go forward and are appropriate responses. There is a 
set of recommendations made, but I think the Commission is 
reviewing them and planning to make decisions on them.
    Mr. Clay. Let me get to Mr. Boyd. Dr. Boyd, in terms of 
technology, can you identify for us any new technological 
advances that have the promise of improving interoperable 
communications among first responders, or spectrum issues 
holding back the emergence of new products?
    Mr. Boyd. I'm not aware of any special issues that would 
hold back the emergence of new products. What I would say is 
that in the near term, there are two kinds of technologies out 
there, those that can address the issue in the near term and 
those that are more on the horizon. In the near term, 
technologies exist now that can help, especially to achieve 
command level interoperability.
    These are largely switch systems, systems such as those 
produced by Raytheon, the ACU systems, the SiTech systems, and 
a number of others that you can think of as high-tech computer 
driven CAT systems that can tie one radio to another. These 
allow for interim, emergency based interoperability. It's not 
what we want ultimately, because it ties up a channel on each 
system, so it's spectrally inefficient, requiring twice as much 
spectrum.
    On the horizon, though, we're seeing newer digital 
technologies coming into play, including radio-over IP, which 
is a way of using digital technologies to permit multiple 
networks to share the same spectrum as though they were on 
different channels, when in fact they are on the same channel. 
We are able to do this in part because voices can be digitized 
into very tiny packets. So you can put a great many in a single 
channel. There are experiments under way now.
    A second possibility is software defined radio. The Defense 
Department has a major software defined radio effort underway 
called the Joint Tactical Radio System, which we're monitoring 
very closely. And there are some private companies that are 
working on software defined radios. These are radios that are 
computer driven so you can tell them to operate on whatever 
band you want them to operate on, using whatever wave form you 
want them to operate on--digital, analog or whatever--and you 
can drive this all out of a single box.
    None of these are panaceas, but there are nevertheless 
technologies which we think are moving very rapidly into this 
field. In some respects, radio, even though it's an older 
technology, is 10 or 15 years behind the computer revolution. 
That's in part because installing these systems has been very 
expensive, so jurisdictions find it difficult to simply upgrade 
tomorrow with a new technology.
    Mr. Clay. Thank you for that response. Thank you, Mr. 
Chairman.
    Mr. Putnam. Thank you, Mr. Clay, and I regret that we're 
going to have to end the first panel here and seat the second 
panel. So we very much appreciate our first panel's comments. 
We look forward to hearing from the boots on the ground.
    The subcommittee will recess for such time as it takes to 
seat panel No. 2.
    [Recess.]
    Mr. Putnam. I hate to do this to our witnesses who just sat 
down, but if you would please rise and raise your right hands 
for the administration of the oath.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all the witnesses 
responded in the affirmative. We appreciate your being with us 
today and look forward to your testimony.
    Our first witness to testify will be Maureen Lischke. Ms. 
Lischke is a member of the Senior Executive Service and has 
served as the National Guard Bureau Chief Information Officer 
since 1996. She also serves as the Deputy Director of Command 
Control Communications and Computers.
    Prior to joining the National Guard Bureau as the Program 
Manager for the Reserve Component Automation System in 1994, 
Ms. Lischke worked for the Defense Communications Agency, now 
the Defense Information Systems Agency. She also served as the 
Deputy Director of Program Oversight with the Office of the 
Assistant Secretary of Defense for Command Control 
Communications and Intelligence. She has been recognized with a 
number of awards and recognitions, and she was among the 2002 
Federal Computer Week top 100 executives recognized from 
Government, industry and academia who had the great impact on 
Government information systems for that year.
    We welcome you to the subcommittee and look forward to your 
testimony. You are recognized for 5 minutes.

 STATEMENT OF MAUREEN LISCHKE, SENIOR EXECUTIVE SERVICE, CHIEF 
           INFORMATION OFFICER, NATIONAL GUARD BUREAU

    Ms. Lischke. Thank you and good afternoon, Mr. Chairman and 
distinguished members of the subcommittee.
    I would like to thank you for the opportunity to speak with 
you today on this very important matter. In the interest of 
time, I have prepared a written statement that I will submit 
for the record. But I would like to take several minutes to 
address several important points.
    As you know, the National Guard lives with one foot in the 
Federal camp and one foot in the State camp. We are the one 
organization that is the bridge between Federal and State 
governments. We live in a world where we have to communicate 
with a myriad of organizations and therefore interoperability 
is very important to us.
    At least 25 of our Adjutants General are also the State 
emergency management officials, and at least 15 of our 
Adjutants General have been named the senior homeland security 
advisor to the Governor. In order to better coordinate with all 
these different organizations, we have created standing joint 
force headquarters in each of the States, territories and the 
District of Columbia. We have representatives from each of the 
military branches and each of the Federal, State and local 
governments in those headquarters.
    In order to address the need for better communications, we 
have with the strong support of Congress implemented a robust 
network that not only connects all of our armories together and 
our standing joint force headquarters, but also connects us to 
the Department of Defense and to our State networks. We have 
built 321 digitized facilities through our distributive 
training technology project that we are using for exercise 
training with our first responders as well as using them for 
command and control locations when the situation calls for it. 
In fact, they were invaluable to us right after September 11.
    We also have fielded 32 civil support teams that have a 
communications band as part of their suite of equipment. This 
provides them with interagency communications. We currently 
have another 12 teams that are in training and are looking 
forward to receiving the resources to stand up the last 11 
teams.
    The recent GAO report referenced the Defense Science 
Board's summer study that came out in November of last year. In 
that summer study, the Defense Science Board captured the 
requirements of the States for communications. As a result, we 
have developed a concept that we refer to as the Joint CONUS 
Communications Support Environment. It's not a single program, 
but rather a number of different initiatives to address those 
States' requirements of interoperable communications down to 
the incident site, as well as being able to pass information up 
and down to those organizations that need it. It also provides 
for a joint operations center in each of the 54 standing joint 
force headquarters that are being manned 24 hours a day, 7 days 
a week.
    We are currently running several pilots to determine the 
solutions that will best meet the States' requirements. And in 
our development of the concept of the Joint CONUS 
Communications Support Environment, we have been working with 
David Boyd to ensure we are all going in the same direction.
    Interoperable communications is critical to us, and we feel 
it is very important to establish a nationwide strategy. We see 
SAFECOM as that program that is addressing this, and we have 
been working with them to contribute to their success.
    In summary, the National Guard is committed to providing 
interoperable communications working with Federal, State and 
local governments and using our unique status to contribute to 
the success in this endeavor.
    I want to thank you for the opportunity to speak to you 
today and I look forward to your questions.
    [The prepared statement of Ms. Lischke follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.075
    
    [GRAPHIC] [TIFF OMITTED] T8292.076
    
    [GRAPHIC] [TIFF OMITTED] T8292.077
    
    [GRAPHIC] [TIFF OMITTED] T8292.078
    
    [GRAPHIC] [TIFF OMITTED] T8292.079
    
    [GRAPHIC] [TIFF OMITTED] T8292.080
    
    Mr. Putnam. Thank you very much. I'm sure there will be a 
number of them.
    Our next witness is Vincent Stile. Mr. Stile is the past 
president of the Association of Public Safety Communications 
Officials International, Inc. He became involved with the APCO 
association when he began serving as southern New York State's 
assistant frequency coordinator for police and local government 
in 1970.
    During his tenure with APCO, Mr. Stile served in a number 
of positions. He served on the APCO automated frequency 
coordination board of directors and on the task force that 
developed the first in-house automated frequency coordination 
system.
    He is a 40 year veteran of the Suffolk County Police 
Department which he currently serves as the police radio 
communications director, a position he has held since 1985. He 
budgets, plans, designs and implements new wireless 
communications systems for the department, the 14th largest in 
the United States.
    We are looking forward to your hands-on expertise. You are 
recognized for 5 minutes.

  STATEMENT OF VINCENT STILE, PAST PRESIDENT, ASSOCIATION OF 
   PUBLIC SAFETY COMMUNICATIONS OFFICIALS INTERNATIONAL, INC.

    Mr. Stile. Thank you, Mr. Chairman.
    As stated, I am Vincent Stile, and I'm a retired police 
officer from the Suffolk County Police Department and serving 
as a frequency radio coordinator and radio spectrum management 
counseling for police and local government of southern New York 
State. I presently also serve as vice chair of the Department 
of Homeland Security Project SAFECOM executive committee.
    I am here today to discuss interoperability as it relates 
to public safety achievements toward that goal. I would first 
like to point out that the goals of interoperability are not 
new, and the term itself has taken on a heightened level of 
meaning since the attack on this Nation 3 years ago. 
Interoperability is a daily occurrence for first responders as 
they perform their routine duties. Interoperability first 
begins in our local communities as police officers, firemen, 
EMS workers, along with their 911 dispatchers, all first 
responders, communicate with each other.
    As I pointed out in my written testimony, the APCO homeland 
security task force identified six topics that most identified 
the needs for putting together responsible interoperability 
planning. Recently, prior to the Republican National Convention 
in New York City, I brought together a number of public safety 
communication specialists from surrounding areas of New York 
City, including radio personnel from the New York City police 
department. I mention this to illustrate that the planning 
process that homeland security task force identified as steps 
to putting together a plan, it was important to have this kind 
of a meeting.
    It is without question that the city planners and New York 
City police department and Secret Service all had all the 
communications concerns well covered for the city. The purpose 
of our meeting, of the surrounding area communications 
specialist, was to make plans in the event of a mutual aid that 
may be required from the surrounding police, fire and EMS 
agencies. We discussed what radio channels would be in use to 
communicate on and who would be in control of designated radio 
assignments. This step represents the planning stage of 
Homeland Security Task Force recommendations.
    We came together to plan what the action would be if 
necessary if we were called out. Any call for aid would 
represent the next step in the recommendations which was 
interoperability phase where radio communications would cross 
over the boundaries of official jurisdictions.
    Next was the selection of radio frequencies that would work 
and provide coverage in that area. Servability and redundancy 
was built into the planning process as the communications 
specialists present all knew the range and coverage to expect 
from the selected radio channels, as well as what radio systems 
would be used or re-used for redundancy. And finally, the 
training portion of the task force recommendations occurred as 
part of the routine testing that has been conducted in the area 
up to this point.
    The pre-planning of public safety entities is extremely 
important and has basically taken hold by many of the local 
government agencies due to the help that is beginning to come 
forward from the Federal funding sources and guidelines 
provided through the help of Federal information sources. Much 
of this help has been infused into the Federal programs by 
State and local government first responders who were sought 
after to provide input for what was necessary to plan for the 
interoperability.
    The Federal guidelines initiated by the Department of 
Homeland Security SAFECOM program are structured to educate, 
train, provide financial assistance as money becomes available. 
These programs can be a complete source for guiding State and 
local government to develop interoperability planning.
    Suffolk County and Nassau County in Long Island are 
developing a bi-county interoperability program with the help 
of Federal grants they recently both received. As part of this 
program, 800 megahertz national channel base stations will be 
located at vantage points on Long Island to provide radio 
coverage for first responders throughout most of Nassau and 
Suffolk Counties. The extension of these national channels will 
be functional in the five boroughs of New York City under the 
control of the Port Authority.
    Also as part of this grant money, radios will be purchased 
to allow Suffolk County police officers that travel through 
Nassau County and into Manhattan have continued communications 
with a monitoring dispatcher at each end of the dispatch areas.
    Interoperability programs such as those mentioned are also 
possible with the assistance of Federal funding and routine 
testing and training on the systems implemented plus ongoing 
upgrading of improved communications equipment. Clearly, 
however, if there is a lack of radio spectrum for public 
safety, all the planning for interoperability will only delay 
its implementation.
    I want to thank you very much again for conducting these 
hearings and allowing me to appear before you today. APCO looks 
forward to working with Congress to assure that public safety 
agencies have access to the needed resources and spectrum that 
are needed to protect the lives and the property of the public 
we serve.
    [The prepared statement of Mr. Stile follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.081
    
    [GRAPHIC] [TIFF OMITTED] T8292.082
    
    [GRAPHIC] [TIFF OMITTED] T8292.083
    
    [GRAPHIC] [TIFF OMITTED] T8292.084
    
    [GRAPHIC] [TIFF OMITTED] T8292.085
    
    [GRAPHIC] [TIFF OMITTED] T8292.086
    
    [GRAPHIC] [TIFF OMITTED] T8292.087
    
    [GRAPHIC] [TIFF OMITTED] T8292.088
    
    [GRAPHIC] [TIFF OMITTED] T8292.089
    
    Mr. Putnam. Thank you very much, Mr. Stile. We appreciate 
that.
    Our next witness is Michael Neuhard. Chief Neuhard is a 27 
year veteran of the Fairfax County Fire and Rescue Department, 
where he currently serves as the fire chief and Fairfax County 
Fire Marshal. In this position, he directs a staff of more than 
1,400, including 1,200 uniformed personnel.
    Chief Neuhard plans, coordinate and directs the overall 
operation of the fire and rescue department, including fire 
suppression, hazardous material abatement, emergency medical 
services, fire prevention, technical rescue and administrative 
and support services. He is a graduate of Mary Washington 
College and the University of Virginia's Weldon Cooper Center 
for Public Service Senior Executive Institute.
    Chief Neuhard's professional affiliations include the 
Virginia State Fire Chiefs Association, the International 
Association of Firefighters and the International Association 
of Fire Chiefs.
    Welcome to the subcommittee, sir, you are recognized for 5 
minutes.

  STATEMENT OF MICHAEL P. NEUHARD, FIRE CHIEF, FAIRFAX COUNTY 
                   FIRE AND RESCUE DEPARTMENT

    Chief Neuhard. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. We are grateful for this 
opportunity to provide you with a local perspective on 
interoperability.
    I have provided you with a complete, detailed set of 
comments and I will summarize some of those here today for you 
in my verbal comments.
    I'd like to take a moment, Mr. Chairman, to indicate to you 
that our thoughts and concerns are with your first responders 
and citizens in Florida. We know what it's like to live through 
a disaster, and we know what they're going through now. And we 
hope that second storm doesn't come to you like it's scheduled 
to.
    The Fairfax County Fire and Rescue Department serves over 1 
million residents, workers and visitors each day in Fairfax 
County. We are an all hazards fire department, providing fire 
suppression efforts, basic life support and advanced life 
support emergency medical services and technical specialties, 
including rescue and cave-in capabilities, hazardous materials 
response and mitigation, and marine operations. Last year, we 
responded to over 90,000 calls for service and our call volume 
continues to grow.
    Many of you know us because of our Fairfax County Urban 
Search and Rescue Program, which is renowned throughout the 
United States and the world, having responded to tragedies such 
as the bombing of the Murrah Building in Oklahoma City in 1995, 
and the Pentagon on September 11, 2001.
    Interoperability is a critical issue for emergency 
responders. From a local perspective, where you are in this 
country will determine how successful you have been in 
achieving interoperability. It must be remembered that 
interoperability is not just about technology. In fact, it has 
been said that interoperability is really 80 percent 
communications and coordination in various forms and only 20 
percent technical.
    Critical components of emergency response systems which 
should be interoperable but are not necessarily technical in 
nature including common incident management techniques, common 
terminology, common policy and procedures, standardized 
training, compatible equipment, such as protective clothing, 
metering devices, self contained breathing apparatus and 
redundant methods of communication. While it is important to 
continue to improve upon and advance technical interoperability 
amongst wireless communication devices, it must be remembered 
that they will be useless, confusing and counterproductive if 
adequate attention is not given to emergency response systems 
as a whole in those areas that I've just mentioned.
    The Commonwealth of Virginia partnered with SAFECOM to 
design a locally driven planning approach to enhance 
communications interoperability across Virginia.
    Mr. Putnam. If you want to just, well, by the time I got 
around to letting you wait, they quit on us. Please proceed.
    Chief Neuhard. Thank you. I was mentioning the partnership 
between the State of Virginia and SAFECOM at the time and their 
efforts to enhance communication interoperability across the 
Commonwealth, which has ultimately resulted in a strategic plan 
that we are now implementing. The process included six regional 
focus group sessions to capture perspective from local public 
safety responders throughout the Commonwealth. Key strategic 
goals include expanding the statewide use of common language 
and coordinated communication protocols, increasing 
interoperability capabilities and coordination by maximizing 
the use of existing communications systems and equipment, and 
by planning for future technology purchases.
    Also, we are attempting to enhance the knowledge of proper 
use of communications equipment by providing frequent and 
routine training for public safety personnel. The plan is now 
being implemented by a full time program manager known as the 
Commonwealth interoperability coordinator.
    There are many challenges that remain. We still face the 
challenge of our computer aided dispatch systems talking to 
each other within a region. The capability is necessary so that 
we can effectively transmit through existing systems amongst 
jurisdictions written information and dated field units.
    We still have a long way to go to assure that there is 
adequate and common command processes, common language and 
policies and procedures that ensure seamless functioning on an 
emergency scene between multiple agencies. Many localities 
continue to simply buy new radios, some through Federal grants, 
without having the proper training on operation and integration 
of that equipment into emergency operations. Exercises of new 
equipment and procedures at the regional level is still very 
uncommon. We need to support more regional training and 
exercises to incorporate interoperability solutions and 
identify additional gaps.
    The Department of Homeland Security, through the SAFECOM 
program, has gained the support of all the major associations 
representing public safety officials, State and local elected 
and appointed officials. In January 2004, the 10 associations 
released a joint statement that declared, with the advent of 
the SAFECOM program, public safety, State and local government 
finally have a voice in public safety discussions at the 
Federal level and confident that the Government is coordinating 
its resources.
    In conclusion, the key to all interoperability is 
cooperation among and between the various agencies and 
jurisdictions. Maintaining forward momentum on improving 
communications and operational interoperability requires 
continued actions on multiple fronts, including common command 
language, local and State level planning, common policy and 
procedures, training and technical advances. It is imperative 
that interoperability remain a high priority at all levels of 
Government and with adequate funding, coordination and support. 
Failure to do so will allow interoperability to be a passing 
fad leading to inefficiencies and poor performance at the next 
major emergency requiring more than one agency to respond or 
more than one level of Government.
    Project SAFECOM is one answer to ensuring it stays focused 
at the Federal level. Thank you very much.
    [Note.--The Commonwealth of Virginia report entitled, 
``Strategic Plan for Statewide Communications Interoperability, 
Fiscal Years 2005-2007,'' may be found in subcommittee files.]
    [The prepared statement of Chief Neuhard follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.090
    
    [GRAPHIC] [TIFF OMITTED] T8292.091
    
    [GRAPHIC] [TIFF OMITTED] T8292.092
    
    [GRAPHIC] [TIFF OMITTED] T8292.093
    
    Mr. Putnam. Thank you very much, Chief.
    We have three votes pending, one, the clock is running now. 
Mr. Worden, we are going to move to your testimony, we will 
hold people here. We are going to do a very brief, brief round 
of questions. I certainly respect and appreciate the distance 
you all have traveled and your time being here with us, but 
unfortunately, we are going to have to cut the second panel 
short to get to the vote.
    So Mr. Worden, your introduction, Chief of 
Telecommunications Branch of the Governor's Office of Emergency 
Services in California, the office responsible for providing a 
communications structure for daily operation of the agency. Mr. 
Worden is a 30 year veteran of the Air Force, where he 
commanded airlift control flight responsible for deploying 
communications and a support group directing communications 
information technology and other support services.
    We greatly appreciate your being here, and you are 
recognized, sir, for 5 minutes.

   STATEMENT OF THOMAS B. WORDEN, CHIEF, TELECOMMUNICATIONS 
  BRANCH, STATE OF CALIFORNIA, GOVERNOR'S OFFICE OF EMERGENCY 
                            SERVICES

    Mr. Worden. Thank you, Mr. Chairman, and committee members.
    I'll attempt to avoid repeating much that is in the 
prepared testimony, skim through here and just hit some 
highlights, and some highlights as well observed in the earlier 
testimony. My perspective is different. At the State level, the 
Office of Emergency Services, we focus on bringing public 
safety professional together across levels of government and 
across disciplines to do planning and to effectively use our 
statewide emergency management system to coordinate during 
emergencies.
    We also do operate as the operator of public safety radio 
systems and administer the licenses of several statewide 
families of channels, bringing together public safety 
professionals from across the State, representing the different 
regions, the different geographics, the different disciplines 
and the different political and financial capabilities of the 
governments they represent.
    The plans they wrote have served for decades, and they have 
been the model for planning. In the fire services they have 
risen to the level of doctrine that drives training and 
equipment decisions, not only in California but nationwide. 
That doctrine is what made the 1,000 vehicle deployment during 
the southern California firestorm possible. While we did have 
some difficulties, we responded to seven major incidents and 
only on a few did we have issues.
    The worst issues were not, however, in San Diego County. 
The limited ability of the San Diego County system to respond 
in growing areas reflects more the lack of guidelines, 
established, accepted, if you will, standards, on how quickly 
you must expand your radio systems as communities develop in 
the suburban fringe and in the wildland urban interface. We 
have very well established standards by which we judge how soon 
we have to open a firehouse, how many police cars we need to 
add, but we do not have those standards in how many radio 
transmitters we have to add, how many repeaters, how much more 
complex to make the system, and yes, we did have tremendous 
problems with calls crashing in the suburban and rural portions 
of San Diego County as a result of that lack of standards.
    Project SAFECOM, by the way, has demonstrated the 
understanding that we build all of these programs successfully 
up from the local requirement to the region, to the State, and 
ultimately to some national standards.
    Our most successful regional public safety radio systems, 
including San Diego, developed out of a need to resolve 
communications issues at the local level, lack of spectrum 
being one driver, the need to modernize extremely outdated 
equipment, and finding a funding mechanism to do so being the 
other. Again, when cross discipline committees have come 
together and cross government committees have come together, 
they have come up with the best solutions. We have yet to see a 
solution imposed from above which has been effectively 
implemented.
    As the Chief said, technology is a very small part of the 
problem. I often tell people that given a reasonable amount of 
time and a huge amount of money, my communications specialists 
can get anybody to talk to anybody. But during a crisis, you 
don't have the time, and in government, we never have an 
unreasonable amount of money.
    There has been a resistance, however, in the pervious grant 
programs to deal with the kind of detailed operational planning 
and technical analysis that the Chief and others have 
discussed. It's been resisted as time consuming; it's been 
resisted as frustrating. It is both of those, but it is the 
core of success.
    We have been working with SAFECOM on RAPIDCom 9/30 and 
we've had the opportunity to read the progress reports from all 
10 cities. Interestingly, we in California asked SAFECOM and 
the ICTAP team to focus on governance documents, on coming up 
with the words and phrases that will regulate how the shared 
frequency system will work.
    We read reports from other cities that are still talking 
about who should be coming to the table to discuss who should 
be on the system. We're beyond that, but we're beyond that 
because in both cities, local government was already beyond 
that, not because of anything that was imposed on them.
    Training is a huge issue. These are complex systems, even 
the ones fielded now. And if the public safety responder does 
not use those features in exercises, doesn't use them in daily 
operations, they will not use them effectively during crisis. 
Most of our grant programs have only now begun to address 
training as an essential portion of implementing these systems.
    Funding, we've already talked about the difficulties for 
local government in retroactive funding and the need to resolve 
that. We do need process controls to make sure that the money 
is spent well, but we can protect, I think, local coffers as 
well as State coffers by assuming honesty as we develop our 
programs, rather than assuming dishonesty on the part of local 
government.
    Another area of funding is those joint power authorities 
that Ms. McCollum referenced. Often, they require local 
governments to pre-commit to year in-year out funding. And when 
Federal and State partners are not willing to do so, it's very 
difficult for those to go forward.
    Very quickly, there are two other areas where Federal 
issues arise. We are happy to invite the tribal governments, 
but when they are unable to sign documents because of liability 
issues in those documents or issues that hit upon tribal 
sovereignty, we at State and local or regional committees 
cannot address those issues. And whether it's implementing the 
800 megahertz consensus solution or other issues, we cannot 
deal with international border issues, which severely limit our 
ability to update in Southern California.
    And with that, sir, I ran very quickly through. Thank you 
for your time, and we all stand ready for your questions.
    [The prepared statement of Mr. Worden follows:]

    [GRAPHIC] [TIFF OMITTED] T8292.094
    
    [GRAPHIC] [TIFF OMITTED] T8292.095
    
    [GRAPHIC] [TIFF OMITTED] T8292.096
    
    [GRAPHIC] [TIFF OMITTED] T8292.097
    
    [GRAPHIC] [TIFF OMITTED] T8292.098
    
    [GRAPHIC] [TIFF OMITTED] T8292.099
    
    Mr. Putnam. Thank you very much. And again, I apologize for 
the fact that we're going to have to cut this short.
    I'm going to give everyone the opportunity to ask the 
question of the day before I have to run off to vote, we'll 
begin with Ms. Lischke, and I would ask all of you to please 
keep your answers to a minute.
    What specifically can the Federal Government do, for the 
short term, for the State and local governments that you 
represent, to improve interoperability?
    Ms. Lischke. Again, I believe the support for the SAFECOM 
program helps us in the long term. And in the short term, 
again, we're working with the SAFECOM project and the RAPIDCom 
project. But it's coming up with some of the patch devices that 
David Boyd was talking about, that allows us to connect 
different types of radios together.
    And also working with the Department of Defense program 
that is putting out land mobile radios, which is a commercial 
off the shelf product and provides us some of the 
interoperability we need until the long term radio that David 
Boyd was talking about, the joint tactical radio, comes out.
    Mr. Putnam. Thank you very much. Mr. Stile.
    Mr. Stile. Thank you. I would say that we need to have the 
SAFECOM continue with their programs at least to better provide 
more of the training, more of the ability to get information 
out to the State and locals, local government needs to be 
funding wise, needs to come down from the State to the local 
level. I would actually like to see it go to the regional 
level, but there is no regional point that those moneys could 
be funded to.
    So it needs to come from the States to the individual 
localities. And I personally believe that it's necessary for 
SAFECOM to continue their program, as to what they've started 
out with and what they're doing.
    Mr. Putnam. Thank you, sir. Chief.
    Chief Neuhard. Thank you, Mr. Chairman. I have three 
suggestions as to what the Federal Government can do to 
continue to help us as first responders. First and foremost, we 
need continued grants that not only include equipment but also 
include planning, training and exercise money, specifically for 
interoperability issues.
    Second, there is, as you heard today, a real need for 
continued facilitation and coordination at all levels of 
Government. I think now SAFECOM is on track and we need to see 
that continue.
    And third, finally, we need a long term commitment to see 
interoperability through. As you've learned today, it is not a 
steady State. It is going to require continued funding and 
continued focus. So at the Federal administrative level, and 
from Congress, we need money and focus. Thank you.
    Mr. Putnam. Money and focus. Thank you.
    Mr. Worden.
    Mr. Worden. Yes, sir. First, the support for SAFECOM and 
the recognition that a single agency developing standards is 
critical. Second, elimination of duplication and, please don't 
get me wrong, I don't want to eliminate duplicate source of 
money, but when those sources of money come with duplicate 
guidance, it leads us off in too many directions.
    Third, cross discipline planning at the Federal level to 
enable locals to plan more effectively for the Federal partners 
who will join them during events, rather than having to deal 
with each agency separately or distinctly different approaches 
to planning from the different Federal agencies.
    Finally, for all the funders to recognize the multi-year 
nature of the funding that's needed both for planning and for 
implementation. It is very difficult to plan and fund a well 
thought out system in the funding cycles we have, and having to 
make investments in one grant cycle with the fear that they 
won't be eligible in the next grant cycle has paralyzed some 
local operations.
    Mr. Putnam. Thank you very much to all of you. Before we 
adjourn, I just want to apologize again for the brevity of 
this, particularly those of you who have traveled. 
Unfortunately, that's just the way the vote schedule works.
    I appreciate your knowledge and experience and thoughts 
that you and panel one shared with us, as well as the efforts 
of the subcommittee members and subcommittee staff, 
particularly Shannon Weinberg and Felipe Colon, as well as 
Grace Washbourne from the full committee.
    We're grateful, terribly grateful for the every day heroes, 
the first responders in our communities who put themselves in 
harm's way on our behalf and run into buildings that everyone 
else is running out of. We look forward to a nation that is 
safer and better protected through improved communications 
capacity and interoperability and also looking forward to 
saving the lives of those men and women who do put themselves 
in harm's way as a result.
    I want to thank everyone who participated in this, and in 
the event, and this is certainly the case, that there are 
additional questions that we did not have time for, the record 
will remain open for 2 weeks for submitted questions and 
answers. We will be submitting those to you, and we look 
forward to your response.
    Thank you so very much. With that, the subcommittee is 
adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8292.100

[GRAPHIC] [TIFF OMITTED] T8292.101

[GRAPHIC] [TIFF OMITTED] T8292.102

[GRAPHIC] [TIFF OMITTED] T8292.103

[GRAPHIC] [TIFF OMITTED] T8292.104

[GRAPHIC] [TIFF OMITTED] T8292.105

[GRAPHIC] [TIFF OMITTED] T8292.106

[GRAPHIC] [TIFF OMITTED] T8292.107

[GRAPHIC] [TIFF OMITTED] T8292.108

[GRAPHIC] [TIFF OMITTED] T8292.109

[GRAPHIC] [TIFF OMITTED] T8292.110

[GRAPHIC] [TIFF OMITTED] T8292.111

[GRAPHIC] [TIFF OMITTED] T8292.112

[GRAPHIC] [TIFF OMITTED] T8292.113

[GRAPHIC] [TIFF OMITTED] T8292.114

[GRAPHIC] [TIFF OMITTED] T8292.115

[GRAPHIC] [TIFF OMITTED] T8292.116

[GRAPHIC] [TIFF OMITTED] T8292.117

[GRAPHIC] [TIFF OMITTED] T8292.118

[GRAPHIC] [TIFF OMITTED] T8292.119

[GRAPHIC] [TIFF OMITTED] T8292.120

[GRAPHIC] [TIFF OMITTED] T8292.121

[GRAPHIC] [TIFF OMITTED] T8292.122

[GRAPHIC] [TIFF OMITTED] T8292.123

[GRAPHIC] [TIFF OMITTED] T8292.124

[GRAPHIC] [TIFF OMITTED] T8292.125

[GRAPHIC] [TIFF OMITTED] T8292.126

                                 <all>

</pre></body></html>
